                 STATEMENT OF EVERETT L. MOSLEY.

                        INSPECTOR GENERAL

            U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

              HOUSE COMMITTEE ON GOVERNMENT REFORM

    SUBCOMMITTEE ON NATIONAL SECURITY, VETERANS AFFAIRS,
                 AND INTERNATIONAL RELATIONS


                         MARCH 15, 2001

     CHAIRMAN SHAYS, RANKING MEMBER KUCINICH, MEMBERS OF THE
SUBCOMMITTEE, AND SUBCOMMITTEE STAFF -- GOOD AFTERNOON, AND
THANK YOU FOR THE OPPORTUNITY TO APPEAR BEFORE THIS
SUBCOMMITTEE.

     TODAY I WOULD LIKE TO GIVE THIS SUBCOMMITTEE BRIEF
OVERVIEWS OF BOTH THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT (USAID) OFFICE OF INSPECTOR GENERAL (OIG) AND OF
THE AGENCY ITSELF. I WILL DISCUSS OIG RESOURCES,
ORGANIZATION, STAFFING AND ACCOMPLISHMENTS. I WILL ALSO
DISCUSS USAID'S MAJOR MANAGEMENT CHALLENGES, USAID
MANAGEMENT'S RESPONSE TO THOSE CHALLENGES AND OUR ACTIONS TO
ASSIST MANAGEMENT IN ADDRESSING THOSE CHALLENGES.



                            PART I
                        OIG OVERVIEW

     THE USAID OFFICE OF INSPECTOR GENERAL WAS ESTABLISHED
ON DECEMBER 29, 1981 BY PUBLIC LAW 97-113. ON
NOVEMBER 29, 1999 ITS RESPONSIBILITIES WERE BROADENED WHEN
PUBLIC LAW 106-113 MADE THE USAID INSPECTOR GENERAL
RESPONSIBLE FOR AUDITS AND INVESTIGATIONS OF THE AFRICAN
DEVELOPMENT FOUNDATION (ADF) AND THE INTER-AMERICAN
FOUNDATION (IDF), AS WELL AS USAID.

     THE USAID OFFICE OF INSPECTOR GENERAL IS CURRENTLY
ORGANIZED INTO THREE UNITS: (1) AUDIT, (2) INVESTIGATIONS
AND (3) MANAGEMENT.

AUDIT

     THE ASSISTANT INSPECTOR GENERAL FOR AUDIT IS
RESPONSIBLE FOR SUPERVISING THE PERFORMANCE OF AUDIT
ACTIVITIES RELATING TO USAID WORLDWIDE PROGRAMS AND
OPERATIONS AND THE ADF AND IAF. AUDIT IS ALLOTED 126
POSITIONS AND IS ORGANIZED ALONG FUNCTIONAL LINES IN ITS
WASHINGTON, D.C. HEADQUARTERS AND ALONG GEOGRAPHICAL LINES
OVERSEAS. IG/A/WASHINGTON CONSISTS OF FOUR DIVISIONS:
PERFORMANCE AUDITS, FINANCIAL AUDITS, INFORMATION TECHNOLOGY
AND SPECIAL AUDITS, AND HEADQUARTERS LIAISON AND
COORDINATION. FIELD OFFICES ARE LOCATED IN CAIRO, EGYPT;
SAN SALVADOR, EL SALVADOR; BUDAPEST, HUNGARY; MANILA,
PHILIPPINES; DAKAR, SENEGAL; AND PRETORIA, SOUTH AFRICA.
MOST AUDIT WORK IS CENTRALLY PLANNED AND MANAGED BY
WASHINGTON DIVISIONS, WITH REGIONAL INSPECTORS GENERAL
PROVIDING FIELDWORK SUPPORT IN THEIR REGIONS.

     AUDITING ACTIVITIES INCLUDE BOTH FINANCIAL AND
PERFORMANCE AUDITS OF USAID PROGRAMS AND OPERATIONS. USAID
AUDIT ACTIVITY TOTALED 597 AUDIT AND RELATED REPORTS DURING
OUR LAST TWO SEMIANNUAL REPORTING PERIODS (FY 2000). THOSE
REPORTS IDENTIFIED APPROXIMATELY $87.0 MILLION IN QUESTIONED
COSTS OR FUNDS WHICH COULD BE PUT TO BETTER USE.

     WHILE COMING UNDER THE GENERAL HEADINGS OF FINANCIAL
AND PERFORMANCE AUDITS, AUDIT ACTIVITIES ACTUALLY COVER A
WIDE VARIETY OF WORK, INCLUDING: FINANCIAL STATEMENT AUDITS
OF USAID PROGRAMS AND OPERATIONS (1 REPORT UNDER THE CHIEF
FINANCIAL OFFICERS (CFO) ACT OF 1990 AND THE GOVERNMENT
MANAGEMENT REFORM ACT (GMRA) OF 1994), FINANCIAL AUDITS OF
USAID CONTRACTORS AND GRANTEES MANY OF WHICH ARE COVERED
UNDER THE SINGLE AUDIT ACT (475 REPORTS WITH $70.7 MILLION
IN MONETARY QUESTIONED COSTS OR MONETARY SAVINGS), FINANCIAL
RELATED AUDITS OF USAID PROGRAMS AND OPERATIONS (19 REPORTS
WITH $258 THOUSAND IN MONETARY RECOMMENDATIONS), AND
PERFORMANCE AUDITS (45 REPORTS WITH $16 MILLION IN MONETARY
SAVINGS). WE ALSO PRODUCED AUDIT REPORTS COVERING
ENTERPRISE FUNDS (SIXTEEN REPORTS) AND VARIOUS SURVEY AND
MISCELLANEOUS REPORTS (41 REPORTS).

     WE DEVOTE SUBSTANTIAL RESOURCES TO AUDITING USAID
GRANTEES AND CONTRACTORS. WE ADDRESS SINGLE AUDIT ACT AND
OMB CIRCULAR A-133 REQUIREMENTS THROUGH AUDITS OF USAID'S
U.S. GRANTEES. WE OVERSEE A PROGRAM EXTENDING SIMILAR AUDIT
REQUIREMENTS TO NON-U.S. GRANTEES. WE ALSO AUDIT USAID'S
U.S. AND NON-U.S. CONTRACTORS ACCORDING TO THE TERMS OF
THEIR INDIVIDUAL CONTRACTS. OUR GOAL IS TO HELP USAID
MAINTAIN ACCOUNTABILITY OVER MOST OF THE MONEY IT TRANSFERS
TO GRANTEES AND CONTRACTORS IN FURTHERANCE OF AGENCY
PROGRAMS AND OPERATIONS.

     OVER THE PAST 10 YEARS, OUR FOCUS ON IMPROVING AND
EXPANDING ACCOUNTABILITY OVER NON-U.S. GRANTEES HAS LED US
TO WORK EVER MORE CLOSELY WITH A NUMBER OF RECIPIENT
GOVERNMENT AUDIT ORGANIZATIONS COMMONLY CALLED SUPREME AUDIT
INSTITUTIONS. THESE ORGANIZATIONS PRESENT US WITH AN
OPPORTUNITY NOT ONLY TO IMPROVE ACCOUNTABILITY OVER FOREIGN
ASSISTANCE, BUT ALSO TO HELP DEVELOP A RECIPIENT COUNTRY'S
OWN AUDIT CAPACITY. OVER THE PAST SEVERAL YEARS, WE HAVE
HOSTED REGIONAL CONFERENCES BRINGING TOGETHER RECIPIENT
COUNTRY OFFICIALS, REPRESENTATIVES OF OTHER NATIONAL


                             2
ASSISTANCE AGENCIES INCLUDING THE WORLD BANK, GRANTEES,
USAID OFFICIALS AND LOCAL COMMERCIAL AUDITORS TO DISCUSS
COMMON ACCOUNTABILITY CONCERNS.

     FOR EXAMPLE, I--ALONG WITH GRAHAM JOSCELYNE, AUDITOR
GENERAL OF THE WORLD BANK AND WILLIAM TAYLOR, THE AUDITOR
GENERAL OF THE INTER-AMERICAN DEVELOPMENT BANK--WAS A CO-
CHAIR OF THE "ANTI-CORRUPTION SUMMIT 2000," WHICH WAS HELD
IN SEPTEMBER 2000. THIS SUMMIT WAS ATTENDED BY
INTERNATIONAL REPRESENTATIVES FROM SUPREME AUDIT
INSTITUTIONS AND INSPECTORS GENERAL OFFICES AS WELL AS CIVIL
SERVANTS AND PRIVATE SECTOR PROFESSIONALS. A VARIETY OF
ANTI-CORRUPTION TOPICS WERE DISCUSSED, INCLUDING A KEYNOTE
ADDRESS CONCERNING THE NEED FOR A GLOBAL RESPONSE TO
CORRUPTION SUCH AS INTERNATIONAL MONEY-LAUNDERING AND THE
INSTITUTIONS THAT FACILITATE THE MOVEMENT OF "DIRTY" MONEY
FROM TERRORISTS, DRUG CARTELS, CRIME GROUPS AND CORRUPT
FOREIGN OFFICIALS.

     SUCH MEETINGS HAVE LED TO CLOSER COOPERATION BETWEEN
THE USAID OIG AND THESE SUPREME AUDITING AGENCIES. OUR
REGIONAL INSPECTORS GENERAL PROVIDE TRAINING, GUIDANCE AND
INSTRUCTION TO MANY SUPREME AUDIT INSTITUTIONS WORLDWIDE,
INCLUDING THE FOLLOWING, WITH WHICH WE HAVE WRITTEN
AGREEMENTS THAT GUIDE OUR COOPERATIVE EFFORTS: BENIN,
BOLIVIA, ETHIOPIA, EL SALVADOR, GHANA, HONDURAS, INDONESIA,
MALI, PERU, SENEGAL, SOUTH AFRICA, ST. LUCIA, TANZANIA,
THAILAND, UGANDA, ZAMBIA AND ZIMBABWE. WE HAVE FOUND THIS
TO BE A VERY COST EFFECTIVE METHOD OF EXPANDING OUR AUDIT
REACH WHILE HELPING DEVELOPING COUNTRIES TO STRENGTHEN THEIR
OWN CAPABILITIES.

     DURING THE PERIOD COVERED BY OUR LAST TWO SEMIANNUAL
REPORTS TO CONGRESS, WE REVIEWED AND DISTRIBUTED SIXTEEN
FINANCIAL AUDIT REPORTS PRODUCED BY NON-FEDERAL AUDITORS
COVERING ENTERPRISE FUND OPERATIONS. ENTERPRISE FUNDS ARE
U.S.-BASED NONPROFIT ENTITIES ESTABLISHED UNDER THE SUPPORT
FOR EAST EUROPEAN DEMOCRACY (SEED) ACT OF 1989. ACCORDING
TO THE SEED ACT, THESE FUNDS ARE SUBJECT TO AN ANNUAL
FINANCIAL STATEMENT AUDIT PERFORMED IN ACCORDANCE WITH
GENERALLY ACCEPTED AUDITING STANDARDS.

INVESTIGATIONS

     THE ASSISTANT INSPECTOR GENERAL FOR INVESTIGATIONS IS
RESPONSIBLE FOR SUPERVISING THE PERFORMANCE OF INVESTIGATIVE
ACTIVITIES RELATING TO USAID, ADF AND IAF PROGRAMS AND
OPERATIONS. INVESTIGATIONS OF CRIMINAL, CIVIL, AND
ADMINISTRATIVE VIOLATIONS COVER ALL FACETS OF THE WORLDWIDE
OPERATIONS OF THESE ENTITIES.

     THE INVESTIGATIONS STAFF IS ALLOCATED 32 FULL-TIME
POSITIONS AND IS ORGANIZED INTO THREE DIVISIONS: THE
DOMESTIC DIVISION, THE OVERSEAS DIVISION AND THE


                             3
HEADQUARTERS LIAISON AND SPECIAL INVESTIGATIONS DIVISION.
THE DOMESTIC DIVISION PROVIDES INVESTIGATIVE COVERAGE FOR
USAID, ADF AND IAF PROGRAMS AND OPERATIONS IN THE UNITED
STATES, CENTRAL AMERICA AND SOUTH AMERICA. IT ALSO HAS
COGNIZANCE OVER THE SAN SALVADOR FIELD OFFICE.

     THE OVERSEAS DIVISION IS HEADQUARTERED IN BUDAPEST,
HUNGARY, WITH RESIDENT AGENTS ALSO ASSIGNED TO FIELD OFFICES
IN CAIRO, EGYPT; DAKAR, SENEGAL; MANILA, PHILIPPINES AND
PRETORIA, SOUTH AFRICA. THE OVERSEAS DIVISION PROVIDES
INVESTIGATIVE COVERAGE FOR USAID AND ADF PROGRAMS AND
OPERATIONS IN EUROPE, ASIA AND AFRICA.

     THE HEADQUARTERS LIAISON AND SPECIAL INVESTIGATIONS
DIVISION IS MADE UP OF TWO UNITS: POLICY, PLANNING AND
QUALITY ASSURANCE AND SPECIAL INVESTIGATIONS. THIS DIVISION
COORDINATES INVESTIGATIVE POLICY, PLANNING, AND QUALITY
ASSURANCE EFFORTS WITHIN THE OIG AND INVESTIGATES CASES OF
EMPLOYEE INTEGRITY ISSUES.

     OIG INVESTIGATES APPARENT VIOLATIONS OF LAWS, RULES,
AND REGULATIONS. WHEN THERE IS REASON TO BELIEVE THERE HAS
BEEN A VIOLATION OF FEDERAL CRIMINAL LAW, WE REPORT DIRECTLY
TO THE DEPARTMENT OF JUSTICE (DOJ). WE ALSO WORK CLOSELY
WITH USAID'S OFFICE OF GENERAL COUNSEL AND THE DOJ IN
MATTERS WHICH MAY RESULT IN CIVIL CLAIMS OR OTHER CIVIL
ACTION.

     OIG INVESTIGATES COMPLAINTS INVOLVING SERIOUS
ADMINISTRATIVE IRREGULARITIES AND OTHER CONDUCT PREJUDICIAL
TO USAID, ADF AND IAF PROGRAMS AND OPERATIONS. INQUIRIES
WHICH DISCLOSE VIOLATIONS OF FEDERAL OR AGENCY RULES AND
REGULATIONS ARE REFERRED TO USAID MANAGEMENT FOR ACTION.
OIG ALSO CONDUCTS INQUIRIES AND DEVELOPS INFORMATION
REQUESTED BY SENIOR MANAGEMENT OR CONGRESS TO FULFILL THEIR
OVERSIGHT RESPONSIBILITIES.

     OVERSEAS INVESTIGATIONS OFFER SPECIAL CHALLENGES AND
DIFFER FROM DOMESTIC INVESTIGATIONS. USAID OIG
INVESTIGATORS WORKING OVERSEAS MUST COPE WITH LANGUAGE AND
CULTURAL DIFFERENCES, AND COMPLY WITH HOST COUNTRY LAWS
GOVERNING THE INVESTIGATIVE PROCESS. OVERSEAS CRIMINAL
INVESTIGATIONS ARE OFTEN COMPLICATED BY THE NEED TO INVOLVE
THE HOST COUNTRY FOREIGN MINISTRY AND HOST COUNTRY
INVESTIGATIVE AGENCIES. OIG INVESTIGATORS ARE LIMITED IN
THEIR AUTHORITY TO QUESTION HOST COUNTRY NATIONALS. WHEN
THIS IS PERMITTED, THE INVESTIGATOR MUST FOLLOW THE
PARTICULAR STEPS FOUND IN LEGAL ASSISTANCE TREATIES OR
AGREEMENTS.

     OIG INVESTIGATIVE PRIORITIES ARE PROGRAM FRAUD, ANTI-
CORRUPTION AND EMPLOYEE INTEGRITY. WE EMPHASIS A PROACTIVE
APPROACH THROUGH FRAUD AWARENESS TRAINING TO AGENCY
EMPLOYEES, CONTRACTORS AND GRANTEES THAT HIGHLIGHTS FRAUD


                             4
INDICATORS, PROCEDURES FOR REPORTING SUSPICIOUS OR ILLEGAL
ACTIVITY, AND USE OF THE OIG HOTLINE. A FRAUD INDICATORS
HANDBOOK HAS ALSO BEEN DEVELOPED AND DISTRIBUTED DURING
TRAINING. THE HANDBOOK CONTAINS VALUABLE INFORMATION ON HOW
TO DETECT FRAUD IN GOVERNMENT CONTRACTS, HOW TO RECOGNIZE
FRAUDULENT SCHEMES IN PROJECTS AND PROCUREMENTS, AND HOW TO
SPOT INDICATORS OF FINANCIAL FRAUD. ALTHOUGH DEVELOPED IN
ENGLISH, THE HANDBOOK HAS ALSO BEEN TRANSLATED INTO SPANISH
AND FRENCH TO MORE EFFECTIVELY COMMUNICATE THE ANTI-FRAUD
INFORMATION TO NON-ENGLISH SPEAKING AUDIENCES. ADDITIONALLY,
THE OIG FRAUD AWARENESS TRAINING PROGRAM HAS BEEN RECORDED
ON VIDEOTAPE FOR DISTRIBUTION TO LOCATIONS WHERE THE ACTUAL
TRAINING HAS NOT BEEN SCHEDULED.
     OIG HAS ALSO DEVELOPED AND IMPLEMENTED AN ANTI-
CORRUPTION STRATEGY CONSISTING OF THE FOLLOWING SIX PARTS:
(1) SURVEY THE ENVIRONMENT – WE ASSESS HISTORICAL CORRUPTION
IN HOST COUNTRIES AND IDENTIFY LOCAL THREATS AND
VULNERABILITIES TO USAID, ADF OR IAF PROGRAMS. (2) ESTABLISH
A CLOSE WORKING RELATIONSHIP – WE WORK CLOSELY WITH USAID,
ADF AND IAF MANAGEMENT, NONGOVERNMENTAL ORGANIZATIONS,
PRIVATE VOLUNTARY ORGANIZATIONS AND HOST GOVERNMENTS TO
PROMOTE COOPERATION AND COLLABORATION WITH USAID, ADF AND
IAF. (3) EMPHASIZE A TEAM APPROACH – WE ENCOURAGE THE TIMELY
SUBMISSION OF REFERRALS AND WORK TOWARD THE EARLY SOLUTION
OF PROBLEMS. (4) EDUCATE EMPLOYEES ABOUT FRAUD AWARENESS
ISSUES – WE TRAIN EMPLOYEES AND PARTNERS IN FRAUD AWARENESS
AND ANTI-CORRUPTION ISSUES TO ENSURE THAT EACH IS AWARE OF
THEIR RESPONSIBILITIES WHEN CONFRONTED WITH FRAUD OR
CORRUPTION. (5) ENFORCE THE FOREIGN CORRUPT PRACTICES ACT
(FCPA) AGGRESSIVELY – THE FCPA PROHIBITS A U.S. FIRM OR
AGENT OF THE FIRM FROM MAKING A “CORRUPT” PAYMENT TO A
FOREIGN OFFICIAL FOR THE PURPOSE OF PROCURING OR RETAINING
BUSINESS. OIG INVESTIGATORS WORK CLOSELY WITH THE
DEPARTMENT OF JUSTICE (DOJ) IN INVESTIGATING FCPA VIOLATIONS
AND USE THE FCPA AS A TOOL IN FIGHTING CORRUPTION IN USAID
PROGRAMS. (6) OFFER RECOMMENDATIONS FOR SYSTEMIC IMPROVEMENT
– WE RECOMMEND SYSTEMIC IMPROVEMENTS IF A WEAKNESS IS
UNCOVERED IN A PROGRAM OR OPERATION AND WORK WITH USAID, ADF
OR IAF TO CORRECT THE PROBLEM.

     THE FOLLOWING CASE DEMONSTRATES SOME RECENT
INVESTIGATIVE RESULTS ENSUING FROM THIS STRATEGY. DURING FY
2000, AN ONGOING OIG INVESTIGATION RESULTED IN THE
CONVICTION OF TWO SEPARATE COMPANIES (ONE GERMAN AND ONE
AMERICAN) ON ONE FELONY COUNT EACH OF PARTICIPATING IN A
CRIMINAL CONSPIRACY TO RIG BIDS ON USAID-FUNDED CONSTRUCTION
CONTRACTS IN VIOLATION OF THE SHERMAN ANTITRUST ACT. THE
GERMAN COMPANY HAD PARTICIPATED IN A CONSPIRACY TO SUPPRESS
AND ELIMINATE COMPETITION BY RIGGING BIDS ON TWO USAID-
FUNDED WASTEWATER CONSTRUCTION PROJECTS IN EGYPT. THE
COMPANY ACKNOWLEDGED THAT THE OBJECTIVE OF THE CONSPIRACY
WAS TO PROTECT THE BIDS OF ITS SUBSIDIARY AND ENSURE THAT IT
WOULD BE AWARDED THE LUCRATIVE USAID CONTRACT AT A HIGHLY


                             5
INFLATED PRICE. THE AMERICAN COMPANY ALSO ADMITTED TO HAVING
CONSPIRED WITH OTHER PRE-QUALIFIED BIDDERS TO MANIPULATE
BIDS ON SELECTED USAID-FUNDED CONSTRUCTION CONTRACTS IN
EGYPT. A $30 MILLION CRIMINAL FINE WAS IMPOSED UPON THE
GERMAN COMPANY, A $4.2 MILLION CRIMINAL FINE AND A $500,000
CIVIL RESTITUTION ON THE AMERICAN COMPANY.

     IN ANOTHER CASE, A LARGE U.S. ENVIRONMENTAL ENGINEERING
FIRM AGREED TO PAY A CIVIL PENALTY OF $400,000 AND
GOVERNMENT INVESTIGATIVE COSTS OF $50,000 TO RESOLVE
ALLEGATIONS THAT IT HAD VIOLATED THE FOREIGN CORRUPT
PRACTICES ACT. THE ENVIRONMENTAL ENGINEERING FIRM HAD
PROVIDED BENEFITS TO THE CHAIRMAN OF A FOREIGN ORGANIZATION
TO INDUCE HIM TO USE HIS OFFICIAL INFLUENCE TO SUPPORT THE
AWARD OF APPROXIMATELY $36 MILLION IN CONTRACTS TO THE FIRM.
THE FOREIGN ORGANIZATION, AN INSTRUMENTALITY OF THE
GOVERNMENT OF THE UNITED ARAB REPUBLIC OF EGYPT, WAS
RESPONSIBLE FOR OPERATING SEWAGE AND WASTEWATER TREATMENT
FACILITIES IN EGYPT. THE FIRM CONSENTED TO COOPERATE IN THE
GOVERNMENT’S ONGOING INVESTIGATION AND TO INSTITUTE CERTAIN
REMEDIAL ACTIONS, INCLUDING MODIFYING ITS EXISTING
COMPLIANCE PROGRAM.

     IN ANOTHER CASE, A U.S. SUBSIDIARY OF AN ITALIAN
MANUFACTURER OF FLOUR MILLING EQUIPMENT PLED GUILTY TO ONE-
COUNT OF OBSTRUCTION OF JUSTICE AND AGREED TO PAY A CRIMINAL
FINE OF $325,000 AS A RESULT OF ACTIONS IT TOOK TO OBSTRUCT
A JOINT USAID/OIG-U.S.CUSTOMS INVESTIGATION. WHEN THE
COMPANY PRESIDENT DECLINED TO TALK WITH INVESTIGATORS, THE
COMPANY’S LEGAL COUNSEL WAS CONTACTED BY AN ASSISTANT UNITED
STATES ATTORNEY AND TOLD THAT SUBPOENAS FOR BOOKS AND
RECORDS WOULD BE ISSUED. THAT NIGHT, INVESTIGATORS SEIZED
THE COMPANY PRESIDENT’S TRASH, REVEALING THAT HE HAD
DISCARDED DIARIES AND NOTEBOOKS SPANNING A THREE-YEAR
PERIOD, AND NOTES AND REFERENCES AROUND WHICH THE
INVESTIGATION WAS BASED. THE ATTEMPT TO DESTROY THESE
RECORDS WAS THE BASIS OF THE OBSTRUCTION OF JUSTICE CHARGE
AGAINST THE COMPANY. IN ADDITION TO THE FINE, THE COMPANY
WAS PLACED ON PROBATION FOR A PERIOD OF TWO YEARS.

MANAGEMENT

     THE ASSISTANT INSPECTOR GENERAL FOR MANAGEMENT LEADS A
STAFF THAT HAS 29 AUTHORIZED POSITIONS. HE PROVIDES ADVICE
AND ASSISTANCE TO ME AND MY ASSISTANT INSPECTORS GENERAL ON
ADMINISTRATIVE, FINANCIAL, AND PERSONNEL MATTERS.

     THE ASSISTANT INSPECTOR GENERAL FOR MANAGEMENT
SUPERVISES PERSONNEL, BUDGET, ACQUISITION, INFORMATION
MANAGEMENT, AND ADMINISTRATIVE SERVICES. THE MANAGEMENT
OFFICE HAS THREE UNITS: PERSONNEL SERVICES, BUDGET AND
ACQUISITIONS, AND INFORMATION MANAGEMENT.

     OUR PERSONNEL SERVICES STAFF PROVIDES SUPPORT FOR BOTH


                             6
CIVIL SERVICE AND FOREIGN SERVICE PERSONNEL. THEY PROVIDE A
FULL RANGE OF SERVICES INCLUDING RELOCATION SUPPORT FOR
OVERSEAS STAFF, RETIREMENT, BENEFITS, CLASSIFICATION,
STAFFING, PROMOTIONS, AWARDS AND TRAINING.

     OUR BUDGET STAFF HAS FACED MANY CHALLENGES OVER THE
PAST YEARS. THEY MANAGE THE OIG OPERATING BUDGET INCLUDING
BUDGET FORMULATION, BUDGET JUSTIFICATION, BUDGET SUBMISSION,
AND BUDGET EXECUTION.

     OUR ACQUISITION STAFF PROVIDES A FULL RANGE OF
PROCUREMENT SERVICES. THEY AWARD A WIDE RANGE OF SMALL AND
LARGE CONTRACTS FOR GENERAL SUPPLIES AND SERVICES, ADP
EQUIPMENT AND PROFESSIONAL SERVICES. THEY CONTINUE TO WORK
CLOSELY WITH THE MISSION CONTROLLERS WHO ASSIST US IN
OBLIGATING FUNDS AND MAKING USAID PAYMENTS TO CONTRACTORS
AND VENDORS OVERSEAS.

     THE INFORMATION MANAGEMENT (IM) STAFF PROVIDES
TECHNICAL SUPPORT TO ALL IG OFFICES. THE SERVICES PROVIDED
BY IM INCLUDE INTERNET AND INTRANET WEB ADMINISTRATION,
NETWORK MANAGEMENT, AND USER SUPPORT.   IM HAS RECENTLY
PUBLISHED UPDATED VERSIONS OF THE INTERNET AND INTRANET WEB
SITES.   OUR INTERNET WEB SITE HAS RECEIVED NATIONAL
RECOGNITION FOR ITS DESIGN AND EDUCATIONAL CONTENT. OUR
INTRANET SITE PROVIDES AN ARRAY OF INFORMATION ON OUR
OFFICES, IG SERVICES, AND LINKS TO RELATED SITES.

     CONSISTENT WITH MANAGEMENT, IM IS DEDICATED TO
PROVIDING EXCELLENT CUSTOMER SERVICE. IM HAS IMPROVED
NETWORK STABILITY, IMPLEMENTED NEW HELP DESK PROCEDURES AND
CONVERTED TO A MORE RELIABLE EMAIL SYSTEM.   ADDITIONALLY,
IM SEEKS TO EMPLOY ENTERPRISE-WIDE TECHNICAL SOLUTIONS TO
ADDRESS THE BUSINESS NEEDS OF OUR IG COMMUNITY.


                           PART II
                       USAID OVERVIEW

     USAID DIRECTLY CONTRIBUTES TO THE ACHIEVEMENT OF U.S.
FOREIGN POLICY GOALS, AS ARTICULATED BY THE PRESIDENT AND
THE SECRETARY OF STATE, THROUGH ITS DEVELOPMENT AND
HUMANITARIAN ASSISTANCE PROGRAMS. SUSTAINABLE DEVELOPMENT
IS THE PROCESS LEADING TO A LASTING INCREASE IN THE CAPACITY
OF SOCIETY TO IMPROVE THE QUALITY OF LIFE OF ITS PEOPLE.
HUMANITARIAN ASSISTANCE, WHICH CONTRIBUTES TO CRISIS
PREVENTION AND MITIGATION, IS AN ESSENTIAL PART OF
SUSTAINABLE DEVELOPMENT.

     USAID DELIVERS MOST OF ITS ASSISTANCE BY ENTERING INTO
CONTRACTS OR BY APPROVING GRANTS AND COOPERATIVE AGREEMENTS.
 USAID ALSO MANAGES SEVERAL CREDIT (LOAN AND LOAN GUARANTY)
PROGRAMS.



                             7
     LIKE MANY ORGANIZATIONS, USAID FACES SEVERAL MAJOR
PERFORMANCE AND MANAGEMENT CHALLENGES. FOR SEVERAL YEARS,
THE OIG HAS BEEN REPORTING ON THESE CHALLENGES THROUGH ITS
SEMIANNUAL REPORTS, LETTERS TO CONGRESS AND OTHER VEHICLES.
 TODAY, I WOULD LIKE TO TAKE SOME TIME TO SUMMARIZE THOSE
CHALLENGES FOR YOU, THE EFFORTS USAID HAS MADE TO ADDRESS
THOSE CHALLENGES AND WHAT THE OIG HAS DONE TO ASSIST IN
THESE EFFORTS.

FINANCIAL MANAGEMENT
     THROUGH A SERIES OF LEGISLATIVE INITIATIVES BEGINNING
IN 1990, THE FEDERAL GOVERNMENT HAS EMBARKED ON A COURSE TO
IMPROVE THE QUALITY OF FINANCIAL INFORMATION USED TO MANAGE
ITS ACTIVITIES. THESE INITIATIVES INCLUDE THE CHIEF
FINANCIAL OFFICERS (CFO) ACT OF 1990, THE GOVERNMENT
MANAGEMENT REFORM ACT (GMRA) OF 1994, AND THE FEDERAL
FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA) OF 1996. EACH
OF THESE LAWS CONCERNS THE PREPARATION AND AUDIT OF ANNUAL
FINANCIAL STATEMENTS BY FEDERAL AGENCIES.

     USAID CANNOT CURRENTLY MEET THE REQUIREMENTS OF THESE
LAWS BECAUSE ITS FINANCIAL MANAGEMENT SYSTEMS DO NOT PROVIDE
COMPLETE, RELIABLE, TIMELY, AND CONSISTENT INFORMATION.
USAID MANAGERS, THEREFORE, CANNOT BE SURE THAT PROGRAM
OBJECTIVES ARE MET; RESOURCES ARE ADEQUATELY SAFEGUARDED;
RELIABLE FINANCIAL AND PERFORMANCE DATA ARE OBTAINED,
MAINTAINED, AND REPORTED; AND ACTIVITIES COMPLY WITH LAWS
AND REGULATIONS.

     IN THE PAST THREE YEARS, USAID HAS MADE CONSIDERABLE
PROGRESS TOWARD RESOLVING PROBLEMS WITH ITS FINANCIAL
MANAGEMENT SYSTEM, AND IT IS PLACING SIGNIFICANT EFFORTS AND
RESOURCES TOWARD ADDITIONAL IMPROVEMENTS. AS A RESULT,
FINANCIAL MANAGEMENT PROCEDURES ARE NO LONGER CONSIDERED A
SERIOUS MANAGEMENT CHALLENGE. HOWEVER, USAID STILL FACES
THE FOLLOWING FOUR MANAGEMENT CHALLENGES:

•   IMPLEMENTING AN INTEGRATED FINANCIAL MANAGEMENT SYSTEM;

•   RECONCILING FINANCIAL DATA;

•   REPORTING ACCOUNTS RECEIVABLE; AND

•   IMPLEMENTING NEW PROCEDURES FOR THE DIRECT LOAN PROGRAM.

PROGRESS ON IMPLEMENTING AN INTEGRATED FINANCIAL MANAGEMENT
SYSTEM

     THE FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
(FFMIA) REQUIRES THAT EACH AGENCY IMPLEMENT AND MAINTAIN
FINANCIAL MANAGEMENT SYSTEMS THAT COMPLY WITH FEDERAL
FINANCIAL MANAGEMENT SYSTEMS REQUIREMENTS, INCLUDING, OFFICE


                                  8
OF MANAGEMENT AND BUDGET’S CIRCULAR NUMBER A-127. USAID’S
GOAL IS TO IMPLEMENT THE ENTIRE SUITE OF INTEGRATED
FINANCIAL AND MIXED FINANCIAL SYSTEMS IN ACCORDANCE WITH
THESE REQUIREMENTS BY FISCAL YEAR 2005.

     TO ATTAIN THIS GOAL, USAID ESTABLISHED THE OFFICE OF
FINANCIAL SYSTEM INTEGRATION TO PLAN FOR AND ACQUIRE USAID’S
FINANCIAL SYSTEMS. THIS OFFICE, UNDER THE DIRECTION OF THE
CHIEF FINANCIAL OFFICER, IS ALSO PREPARING AN OVERALL PLAN
TO MODERNIZE USAID’S LEGACY SYSTEMS AS COMPONENTS OF AN
INTEGRATED FINANCIAL SYSTEM.

     USAID IS IN THE PROCESS OF IMPLEMENTING AN INTEGRATED
FINANCIAL MANAGEMENT SYSTEM, USING COMMERCIAL-OFF-THE-SHELF
SOFTWARE THAT WILL COMPLY WITH THE FFMIA AND THE CLINGER-
COHEN ACT OF 1996. BECAUSE USAID’S INTEGRATED SYSTEM WILL
INCLUDE LEGACY SYSTEM INFORMATION, USAID WILL NEED TO
CONVERT AND MOVE DATA FROM EXISTING SYSTEMS TO THE NEW CORE
FINANCIAL MANAGEMENT SYSTEM. THIS NEW SYSTEM IS BEING
IMPLEMENTED IN SEVERAL PHASES.

•   THE FIRST PHASE, DEPLOYMENT OF THE INTEGRATED FINANCIAL
    MANAGEMENT SYSTEM’S CORE COMPONENT (PHOENIX), BEGAN
    DECEMBER 15, 2000.

•   THE SECOND PHASE WILL CONCENTRATE ON INTEGRATING VARIOUS
    SUBSYSTEMS (INTERFACES WITH INTERNAL AND EXTERNAL
    SYSTEMS) THAT WILL FEED PROCUREMENT AND FINANCIAL
    INFORMATION INTO THE PHOENIX SYSTEM. USAID PROJECT
    MANAGERS ESTIMATE THIS PHASE WILL BE COMPLETED DURING FY
    2001.

•   DURING THE THIRD PHASE, USAID WILL DEVELOP A SECURE
    INTERFACE TO ALLOW THE TRANSFER OF DATA FROM OVERSEAS
    MISSIONS TO WASHINGTON, D.C. SYSTEM SECURITY WILL BE
    ENCHANCED THROUGH THE USE OF RISK ASSESSMENTS, TECHNOLOGY
    UPGRADES, EXPANDED TRAINING AND DATA ENCRYPTION. THIS
    WORK IS SCHEDULED FOR COMPLETION BY THE END OF FY 2002.

•   THE FINAL PHASE WILL ENABLE THE CAPABILITY TO INTEGRATE
    COST ACCOUNTING FUNCTIONS INTO THE PHOENIX FINANCIAL
    SYSTEM. THIS PHASE IS ESTIMATED FOR COMPLETION DURING
    FISCAL YEAR 2003.

     THE OIG IDENTIFIED SEVERAL CONCERNS WITH THE PHOENIX
IMPLEMENTATION BEFORE THE SCHEDULED DEPLOYMENT. THESE
INCLUDED:

•   COMPRESSED AND LIMITED SOFTWARE TESTING OF FUNCTIONAL
    REQUIREMENTS AND A LACK OF PARALLEL OPERATIONS.

•   DELAYS IN MIGRATING DATA FROM THE OLD TO THE NEW SYSTEM.


                               9
•   AN INCOMPLETE AND UNTESTED CONTINGENCY PLAN. SUCH PLANS
    ENSURE CONTINUED SYSTEMS OPERATION IN THE EVENT OF
    PROBLEMS.

•   DEFERRAL OF SOME SYSTEM FUNCTIONALITY.

•   UNEVEN ATTENDANCE AT USER TRAINING SESSIONS.

•   NO PROCESS TO DOCUMENT THE SHOWSTOPPERS AND THE FINAL
    DECISIONS AUTHORIZING DEPLOYMENT OF THE SYSTEM.
    SHOWSTOPPERS ARE CRITICAL PROBLEMS THAT PREVENT THE
    PROPER FUNCTIONING OF A SYSTEM.

     THE OIG HAS WORKED CLOSELY WITH USAID MANAGEMENT ON
THESE CONCERNS AND RECOMMENDED THAT USAID THOROUGHLY TEST
PHOENIX AND RESOLVE ANY OPERATIONAL PROBLEMS. TO ADDRESS
THESE CONCERNS, USAID DELAYED THE DEPLOYMENT, TOOK ACTION TO
CONDUCT MORE TESTING, INCREASED USERS’ PARTICIPATION, AND
DESIGNED A PROJECT TOOL TO ASSESS THE OPERATIONAL READINESS
OF PHOENIX. THE OIG CONTINUES TO MONITOR USAID’S PROGRESS
IN IMPLEMENTING PHOENIX.

PROGRESS ON CORRECTING FINANCIAL MANAGEMENT SYSTEM PLANNING
DEFICIENCIES

     THE FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
REQUIRES AGENCIES TO DETERMINE WHETHER THEIR FINANCIAL
MANAGEMENT SYSTEMS MEET FEDERAL REQUIREMENTS DESIGNED TO
ENSURE THAT MANAGERS RECEIVE RELIABLE INFORMATION. SUCH
INFORMATION IS NECESSARY TO RELIABLY REPORT FINANCIAL AND
PERFORMANCE RESULTS AND TO BETTER MANAGE AGENCY OPERATIONS.
 IN DECEMBER 1997, THE ADMINISTRATOR DETERMINED THAT USAID
SYSTEMS DID NOT MEET THOSE FEDERAL REQUIREMENTS AND, IN
DECEMBER 1998, USAID PREPARED A PLAN TO CORRECT SYSTEM
DEFICIENCIES.

     IN MARCH 1999, THE OIG REVIEWED USAID’S REMEDIATION
PLAN AND REPORTED THAT THE PLAN WAS INADEQUATE. IN ADDITION
TO PROBLEMS WITH THE PLAN, THE OIG ALSO REPORTED THAT USAID
LACKED: (1) AN AGENCY-WIDE INFORMATION TECHNOLOGY TARGET
ARCHITECTURE, (2) A FINANCIAL MANAGEMENT SYSTEM PORTFOLIO
MEETING OMB’S GUIDELINES FOR SELECTING INFORMATION
TECHNOLOGY INVESTMENTS, (3) A MODULAR ACQUISITION STRATEGY,
AND (4) A PROGRAM MANAGEMENT OFFICE TO OVERSEE THE
DEVELOPMENT OF AN INTEGRATED FINANCIAL MANAGEMENT SYSTEM.

     IN AUGUST 2000, THE OIG REPORTED THAT USAID HAD MADE
PROGRESS IN CORRECTING THESE FINANCIAL MANAGEMENT SYSTEM
PLANNING DEFICIENCIES. HOWEVER, ONLY TWO DEFICIENCIES, THE
ABSENCES OF AN AGENCY-WIDE INFORMATION TECHNOLOGY TARGET
ARCHITECTURE AND A MODULAR ACQUISITION STRATEGY, HAVE BEEN
FULLY CORRECTED. THE OTHER DEFICIENCIES HAVE BEEN ONLY
PARTIALLY CORRECTED.


                              10
    THE OIG AUDIT REPORT ADDRESSING THIS AREA RECOMMENDED
THAT USAID MANAGEMENT: (1) DEVELOP AND IMPLEMENT A PROCESS
FOR SELECTING INFORMATION TECHNOLOGY INVESTMENTS THAT
COMPLIES WITH OMB AND GAO GUIDELINES, (2) REVISE USAID’S
FINANCIAL MANAGEMENT SYSTEM REMEDIATION PLAN, AND (3)
STRENGTHEN THE AUTHORITY OF THE OFFICE OF FINANCIAL SYSTEMS
INTEGRATION.

     USAID MANAGEMENT ACCEPTED THE OIG’S FINDINGS AND
RECOMMENDATIONS CONCERNING THE INFORMATION TECHNOLOGY
SELECTION PROCESS AND THE REVISION OF THE REMEDIATION PLAN.
 USAID MANAGEMENT ALSO AGREED TO ENSURE THAT THE CHIEF
INFORMATION OFFICER, THE CHIEF FINANCIAL OFFICER, AND THE
ASSISTANT ADMINISTRATOR FOR MANAGEMENT, ALONG WITH THE
OFFICE OF FINANCIAL SYSTEMS INTEGRATION--COLLECTIVELY--WILL
HAVE THE RESPONSIBILITY, AUTHORITY, AND STRUCTURE NECESSARY
TO PROPERLY DIRECT THE DEVELOPMENT AND DEPLOYMENT OF ALL
FINANCIAL-RELATED COMPONENTS OF THE INTEGRATED FINANCIAL
MANAGEMENT SYSTEM PROGRAM.

DATA RECONCILIATION

     DESPITE IMPROVEMENTS, RECONCILIATION OF FINANCIAL
MANAGEMENT INFORMATION AT USAID CONTINUES TO BE A CHALLENGE.
 USAID HAS EXPERIENCED DIFFICULTY RECONCILING ITS FUND
BALANCE WITH THE U.S. DEPARTMENT OF TREASURY (TREASURY) AND
WITH THE ADVANCES IT HAS PROVIDED TO GRANTEES. THIS
SITUATION HAS BEEN CONSISTENTLY REPORTED IN PREVIOUS OIG
FINANCIAL STATEMENT AUDIT REPORTS ISSUED IN RESPONSE TO THE
GMRA.

     DURING THE OIG'S FY 2000 GMRA AUDIT, WE REVIEWED
USAID'S PROGRESS ON BOTH TYPES OF RECONCILIATIONS. WE
DETERMINED THAT USAID'S RECONCILIATION PROCESS FOR ITS FUND
BALANCE WITH TREASURY HAD IMPROVED. THROUGH RESOLVING
DIFFERENCES WITH TREASURY AND TRACKING RECONCILING ITEMS
REPORTED BY OVERSEAS MISSIONS, USAID HAD GREATLY REDUCED THE
NUMBER OF OUTSTANDING RECONCILING ITEMS AT SEPTEMBER 30,
2000.

     ON THE OTHER HAND, OUR REVIEW OF USAID'S RECONCILIATION
PROCESS FOR ADVANCES TO GRANTEES DID NOT IDENTIFY ANY
SIGNIFICANT IMPROVEMENTS. IN ATTEMPTING TO ADDRESS THIS
CHALLENGE, USAID ENGAGED THE U.S. DEPARTMENT OF HEALTH AND
HUMAN SERVICES (DHHS) TO PROCESS BOTH ADVANCES TO GRANTEES
AND SUBSEQUENT LIQUIDATION OF THOSE ADVANCES. IT HAS ALSO
CONTRACTED WITH A PUBLIC ACCOUNTING FIRM TO RECONCILE
OBLIGATIONS THAT HAVE BEEN ESTABLISHED TO FUND ADVANCES TO
GRANTEES. WE WILL REASSESS THIS SITUATION DURING OUR FY
2001 GMRA AUDIT.

ACCOUNTS RECEIVABLE



                             11
     USAID CONTINUES TO HAVE A PROBLEM REPORTING ACCOUNTS
RECEIVABLES IN AN ACCURATE AND TIMELY MANNER. WE REPORTED
THIS ISSUE FOR THE FIRST TIME TO USAID MANAGEMENT IN 1996.

     USAID IS BUILDING THE CAPACITY TO PROPERLY ESTABLISH
AND REPORT OUTSTANDING ACCOUNTS RECEIVABLE INTO ITS NEW CORE
ACCOUNTING SYSTEM. UNTIL THE NEW SYSTEM IS BROUGHT ONLINE,
USAID WILL CONTINUE TO HAVE A MAJOR CHALLENGE IN
ESTABLISHING AND REPORTING ITS OUTSTANDING ACCOUNTS
RECEIVABLE.

DIRECT LOAN PROGRAM

     USAID IS DEVELOPING AND DOCUMENTING PROCEDURES FOR
MANAGING AND REPORTING ON THE FINANCIAL ACTIVITIES RELATED
TO THE DIRECT LOAN PROGRAM. ADDITIONALLY, IN JULY 1998,
USAID COMPLETED THE OUTSOURCING OF ITS CREDIT PORTFOLIO
MANAGEMENT TO A COMMERCIAL BANK. AS PART OF OUR AUDIT OF
USAID’S CONSOLIDATED FINANCIAL STATEMENT FOR FISCAL YEAR
2000, WE WILL DETERMINE WHETHER THE IMPLEMENTATION OF NEW
PROCEDURES AND THE OUTSOURCING TO A COMMERCIAL BANK HAS
SUFFICIENTLY REDUCED DIRECT LOAN PROGRAM VULNERABILITIES.


HUMAN CAPITAL MANAGEMENT

     CONTINUED STAFF REDUCTIONS AND LIMITED HIRING CAN
GREATLY AFFECT USAID'S CAPACITY TO OPERATE EFFECTIVELY.
ACCORDING TO ITS FY 1999 ACCOUNTABILITY REPORT, USAID
STAFFING LEVELS HAVE DECLINED BY 38 PERCENT OVER THE LAST
TEN YEARS. IN FISCAL YEAR 2000, USAID’S TOTAL WORKFORCE
ATTRITION WAS 225, COMPARED WITH PROJECTED ATTRITION OF 180.

     DUE TO FUNDING CONSTRAINTS, THE TIME REQUIRED TO
RECRUIT AND PROCESS NEW HIRES, AND THE FACT THAT ITS HIRING
ACTIVITIES ARE KEYED TO PROJECTED ATTRITION, USAID CURRENTLY
HAS MORE THAN 100 AUTHORIZED BUT UNFILLED POSITIONS. MANY
OF THESE UNFILLED POSITIONS ARE IN CRITICAL HIGH-TURNOVER
AREAS SUCH AS INFORMATION MANAGEMENT, FINANCIAL MANAGEMENT,
AND PROCUREMENT. A MAJOR CONCERN IS THE STEADY DECLINE IN
THE NUMBER OF EXPERIENCED FOREIGN SERVICE OFFICERS AND
EMPLOYEES WITH IN-HOUSE TECHNICAL EXPERTISE. TO MANAGE ITS
PROGRAMS FOR RESULTS, USAID MUST HAVE THE RIGHT PEOPLE--WITH
THE RIGHT TRAINING AND SKILLS--IN THE RIGHT PLACES AT THE
RIGHT TIME.

STAFF TRAINING

     ACCORDING TO ITS FY 1999 ACCOUNTABILITY REPORT, USAID
HAD DEVELOPED NEW AND INNOVATIVE TRAINING COURSES STRESSING
MANAGEMENT, PROCUREMENT, OPERATIONS AND TECHNICAL SKILLS.
IN ADDITION, IT HAD DEVELOPED THE FRAMEWORK FOR A NEW COURSE
IN LEADERSHIP AND PROGRAM OPERATIONS. THROUGH THESE
COURSES, USAID PLANNED TO TARGET CERTAIN KEY PERSONNEL


                             12
CATEGORIES IN ITS EFFORTS TO ADDRESS ITS HUMAN RESOURCE
CAPABILITIES. ACCORDINGLY, USAID WAS CONDUCTING TRAINING
AND WORKSHOPS TO TRAIN STAFF IN STRATEGIC PLANNING, ACTIVITY
IMPLEMENTATION, PERFORMANCE MONITORING AND EVALUATION, AND
ACQUISITIONS AND ASSISTANCE PLANNING AND ADMINISTRATION.

     WE HAVE BEGUN AN AUDIT OF USAID’S STAFF TRAINING AND
DEVELOPMENT ACTIVITIES TO DETERMINE WHETHER USAID PROVIDES
ITS EMPLOYEES WITH SUFFICIENT TRAINING TO ACCOMPLISH THE
AGENCY'S MISSION. THE SCOPE OF THIS AUDIT INCLUDES USAID
TRAINING ACTIVITIES CONDUCTED DURING FISCAL YEARS 1999 AND
2000. THE AUDIT IS REVIEWING CONTROLS OVER THE
ESTABLISHMENT OF CORE COMPENTENCIES, USING THOSE
COMPETENCIES TO IDENTIFY TRAINING NEEDS, AND EVALUATING THE
CONTRIBUTIONS OF STAFF TRAINING AND DEVELOPMENT ACTIVITIES.

INFORMATION RESOURCE MANAGEMENT

     EXECUTIVE AGENCIES ARE REQUIRED BY THE CLINGER-COHEN
ACT OF 1996 TO IMPLEMENT A PROCESS TO MAXIMIZE THE VALUE AND
ASSESS THE MANAGEMENT RISKS INVOLVED IN INFORMATION
TECHNOLOGY INVESTMENTS. OIG AUDITS AND OTHER STUDIES
CONDUCTED OVER THE PAST SEVERAL YEARS HAVE DEMONSTRATED THAT
USAID’S MANAGEMENT OF INFORMATION RESOURCES HAS NOT BEEN
EFFECTIVE. ORGANIZATIONAL AND MANAGEMENT DEFICIENCIES HAVE
HINDERED USAID FROM ACQUIRING AND IMPLEMENTING EFFECTIVE
INFORMATION SYSTEMS AND HAVE ALSO HINDERED USAID MANAGERS
FROM OBTAINING RELIABLE, COMPLETE, AND TIMELY FINANCIAL AND
PERFORMANCE INFORMATION.

     THE OIG IDENTIFIED THREE INFORMATION RESOURCE
MANAGEMENT DEFICIENCIES: NEW MANAGEMENT SYSTEM REPORTING AND
RESOURCE MANAGEMENT CAPABILITIES, INFORMATION RESOURCES
MANAGEMENT PROCESSES AND USAID'S COMPUTER SECURITY PROGRAM.




                             13
NEW MANAGEMENT SYSTEM REPORTING AND RESOURCE MANAGEMENT
CAPABILITIES

     FOR YEARS, USAID MANAGERS HAVE NOT HAD TIMELY ACCESS TO
FINANCIAL MANAGEMENT AND RESOURCE MANAGEMENT DATA THAT IS
COMPLETE, RELIABLE, AND CONSISTENT. USAID’S NEW MANAGEMENT
SYSTEM (NMS) WAS INTENDED TO CORRECT SYSTEM DEFICIENCIES
RELATED TO ACCOUNTING, BUDGETING, AND PROCUREMENT, AS WELL
AS PROGRAM OPERATIONS AND REPORTING. NMS FAILED TO DO SO
BECAUSE OF SEVERE TECHNICAL AND IMPLEMENTATION PROBLEMS
STEMMING FROM USAID'S DEVIATION FROM ACCEPTED SYSTEM
DEVELOPMENT PRACTICES.

     TO ADDRESS THIS WEAKNESS, USAID IS CURRENTLY
IMPLEMENTING THE CORE FINANCIAL COMPONENT OF AN INTEGRATED
FINANCIAL MANAGEMENT AND ACCOUNTING SYSTEM. THIS NEW SYSTEM
(PHOENIX) WAS DEPLOYED IN WASHINGTON D.C. ON DECEMBER 15,
2000. IN ADDITION TO IMPLEMENTING PHOENIX, IN FISCAL YEAR
2000, USAID IMPLEMENTED A SYSTEM TO CAPTURE FIELD
PROCUREMENT DATA. THIS SYSTEM WILL ADDRESS A WEAKNESS IN
COMPLYING WITH FEDERALLY MANDATED PROCUREMENT REPORTING
REQUIREMENTS UNTIL THE NEW PROCUREMENT SYSTEM IS
IMPLEMENTED.

INFORMATION RESOURCE MANAGEMENT PROCESSES

     IN 1997 AND 1998, THE OIG REPORTED A NUMBER OF SERIOUS
INFORMATION RESOURCES MANAGEMENT DEFICIENCIES THAT
CONTRIBUTED TO PREMATURE DEPLOYMENT OF THE NMS, A SYSTEM
THAT HAD NOT BEEN TESTED AND DID NOT OPERATE EFFECTIVELY.
USAID HAD ADOPTED A HIGH-RISK APPROACH THAT DID NOT FOLLOW
ACCEPTED SYSTEM DEVELOPMENT PRACTICES AND HAD DEPLOYED THE
SYSTEM WORLDWIDE THOUGH SEVERE PROBLEMS HAD BEEN PREVIOUSLY
IDENTIFIED.

     AS PREVIOUSLY DISCUSSED, USAID DECIDED TO REPLACE THE
CORE FINANCIAL COMPONENTS OF NMS WITH A NEW SYSTEM: PHOENIX,
A COMMERICAL OFF-THE SHELF PACKAGE. OUR CURRENT WORK ON
USAID’S IMPLEMENTATION OF PHOENIX CONCLUDED THAT USAID IS
STILL EXPERIENCING WEAKNESSES IN ITS INFORMATION RESOURCE
MANAGEMENT PROCESSES.

     FOR EXAMPLE, IN OCTOBER 2000, USAID PLANNED TO DEPLOY
PHOENIX BEFORE THE SYSTEM HAD BEEN FULLY TESTED. THE OIG
EXPRESSED CONCERNS WITH THE IMPLEMENTATION SCHEDULE AND
RECOMMENDED THAT USAID THOROUGHLY TEST PHOENIX TO ENSURE
THAT THE SYSTEM WOULD OPERATE EFFECTIVELY. IN THREE
MEMORANDUMS TO THE USAID ADMINISTRATOR, THE OIG IDENTIFIED
SPECIFIC RISKS AND CHALLENGES FACING PHOENIX, SUCH AS
SOFTWARE TESTING WEAKNESSES, POTENTIAL DIFFICULTIES WITH
DATA MIGRATION, AND THE NEED FOR CONTINGENCY PLANNING. TO
ADDRESS THESE AND OTHER CONCERNS, USAID DELAYED THE
DEPLOYMENT OF THE SYSTEM UNTIL DECEMBER 2000 AND TOOK
ACTIONS TO CONDUCT MORE TESTING, ALLOW GREATER PARTICIPATION


                             14
BY SYSTEMS USERS, AND MORE THROUGHLY ASSESS THE OPERATIONAL
READINESS OF PHOENIX.

     IN ADDITION, USAID HAS TAKEN A NUMBER OF STEPS TO
IMPLEMENT DISCIPLINED PROCESSES THAT COMPLY WITH CLINGER-
COHEN ACT REQUIREMENTS. FOR EXAMPLE:


•   USAID HAS OBTAINED A CONTRACTOR TO PROVIDE SPECIALIZED
    MANAGEMENT SUPPORT AND INFORMATION RESOURCE MANAGEMENT
    EXPERTISE AND HAS BEGUN TO IMPLEMENT A SOFTWARE
    ACQUISITION MODEL WHICH IS A RECOGNIZED ARCHETYPE FOR
    BOTH BENCHMARKING AND IMPROVING THE SOFTWARE ACQUISITION
    PROCESS.

•   USAID HAS DEVELOPED PLANS TO SEEK INDEPENDENT
    VERIFICATION THAT ITS PRACTICES MEET COMMONLY ACCEPTED
    GOVERNMENT AND INDUSTRY STANDARDS AND ANTICIPATES THAT
    SUCH VERIFICATION WILL BE RECEIVED IN FISCAL YEAR 2001
    2002.

•   USAID IS DEVELOPING AN INFORMATION TECHNOLOGY
    ARCHITECTURE THAT WILL CONFORM TO OMB REQUIREMENTS FOR AN
    ENTERPRISE ARCHITECTURE, A TECHNICAL REFERENCE MODEL AND
    A STANDARDS PROFILE.

     THE OIG PLANS TO MONITOR THE PROCESSES ASSOCIATED WITH
THE IMPLEMENTATION OF USAID’S PHOENIX SYSTEM. THE OIG WILL
ALSO CONDUCT FUTURE AUDITS RELATED TO USAID’S INFORMATION
RESOURCE MANAGEMENT PROCESSES.

COMPUTER SECURITY

     DURING THE PAST YEAR, THE NATIONAL NEWS MEDIA HAS
REPORTED SEVERAL HIGH-LEVEL LAPSES OF GOVERNMENTAL SECURITY
INCLUDING COMPUTER SECURITY. GIVEN THE RECENT PRESIDENTIAL
AND CONGRESSIONAL EMPHASIS ON THE IMPORTANCE OF COMPUTER
SECURITY, THE OIG CONTINUES TO MAKE OVERSIGHT OF COMPUTER
SECURITY ONE OF OUR TOP PRIORITIES.

     THE OIG HAS ISSUED SEVERAL AUDIT REPORTS IDENTIFYING
COMPUTER SECURITY DEFICIENCIES THAT EXPOSED USAID TO
UNACCEPTABLE RISK THAT RESOURCES AND SENSITIVE DATA MIGHT
NOT BE ADEQUATELY PROTECTED FROM LOSS OR DESTRUCTION. THESE
DEFICIENCIES EXIST BECAUSE USAID HAS NOT IMPLEMENTED AN
EFFECTIVE COMPUTER SECURITY PROGRAM AS REQUIRED BY THE
COMPUTER SECURITY ACT AND OMB CIRCULAR A-130.

     USAID HAS MADE SIGNIFICANT PROGRESS IN DEVELOPING A
PROGRAM TO IMPROVE ITS ABILITY TO PROTECT COMPUTERIZED
INFORMATION. FOR EXAMPLE, USAID HAS UPDATED SECURITY
POLICIES, DEVELOPED A SECURITY EVALUATION PROCESS THAT
REQUIRES CERTIFICATION BY USAID MANAGERS, DEVELOPED


                              15
PROCESSES AND CONDUCTED RISK ASSESSMENTS AT SIX MISSIONS,
AND PERFORMED EVALUATIONS OF NMS AND PHOENIX.

     IN ADDITION, USAID OFFICIALS HAVE CRAFTED A MODEL
INFORMATION SYSTEM SECURITY PROGRAM. THIS PROGRAM PROVIDES
A FRAMEWORK FOR IDENTIFYING AND DISSEMINATING TO OTHER
GOVERNMENT AGENCIES A COMPLETE SET OF ‘BEST PRACTICES’ FOR
IMPLEMENTING AN EFFECTIVE COMPUTER SECURITY PROGRAM. THE
PROGRAM HAS BEEN RECOGNIZED BY THE CHIEF INFORMATION
OFFICERS COUNCIL, GENERAL SERVICES ADMINISTRATION, AND
OTHERS, AS AN INNOVATIVE AND COMPREHENSIVE APPROACH THAT
COULD BENEFIT THE ENTIRE FEDERAL GOVERNMENT.

     THE OIG ALSO CONTINUES TO WORK CLOSELY WITH THE USAID
INFORMATION SYSTEMS SECURITY OFFICER AND TO PARTICIPATE IN
THE INFORMATION SYSTEMS SECURITY WORKING GROUP. WHILE USAID
HAS MADE SIGNIFICANT IMPROVEMENTS IN ITS INFORMATION
SYSTEMS' SECURITY, MUCH WORK REMAINS TO BE DONE. USAID
ESTIMATES THAT COMPUTER SECURITY VULNERABILITIES WILL NOT BE
FULLY CORRECTED UNTIL 2003.

MANAGING FOR RESULTS

     IN PAST YEARS, THE OIG HAS IDENTIFIED REPORTING OF
PROGRAM RESULTS AS A MAJOR CHALLENGE FOR USAID MANAGEMENT.
ALTHOUGH, IN SEPTEMBER 1999, USAID REMOVED RESULTS REPORTING
FROM ITS LIST OF REPORTABLE WEAKNESSES UNDER THE FEDERAL
MANAGERS FINANCIAL INTEGRITY ACT OF 1983, THE OIG CONTINUES
TO VIEW RESULTS REPORTING AS A MAJOR MANAGEMENT CHALLENGE.
AS DESCRIBED IN THE FOLLOWING PARAGRAPHS, USAID CONTINUES TO
HAVE PROBLEMS DEVELOPING PERFORMANCE MEASUREMENT SYSTEMS
THAT MEET EXTERNAL AND INTERNAL REPORTING REQUIREMENTS,
INCLUDING THE REQUIREMENTS OF THE GOVERNMENT PERFORMANCE AND
RESULTS ACT OF 1993 (RESULTS ACT). THE FOLLOWING DISCUSSES
TWO COMPONENTS OF THAT CHALLENGE.

IMPLEMENTATION OF THE RESULTS ACT

     THE OIG HAS TAKEN AN ACTIVE ROLE TO HELP USAID MEET THE
REQUIREMENTS OF THE RESULTS ACT. OIG AUDITS HAVE REVEALED
SEVERAL WEAKNESSES IN THE PERFORMANCE MEASUREMENT SYSTEMS
USAID USES IN RESULTS ACT REPORTING. FOR INSTANCE, THE OIG,
AS WELL AS THE GENERAL ACCOUNTING OFFICE, HAS NOTED THAT
USAID NEEDS TO:

•   MEASURE ITS PERFORMANCE USING DATA ATTRIBUTABLE TO ITS
    OWN PROGRAM PERFORMANCE RATHER THAN THAT OF THE ENTIRE
    DONOR COMMUNITY,

•   CLEARLY LINK ITS PERFORMANCE GOALS TO ITS PROGRAM
    ACTIVITIES, AND

•   USE TIMELY DATA TO REPORT ITS PERFORMANCE.


                              16
     AS A RESULT OF THESE WEAKNESSES, THE INFORMATION
REPORTED UNDER THE RESULTS ACT HAS LIMITED USEFULNESS FOR
DEMONSTRATING USAID'S PROGRESS IN ACCOMPLISHING ITS GOALS
AND OBJECTIVES.

     TO MORE CLEARLY TIE THE PLANNED AND REPORTED RESULTS,
USAID OFFICIALS ARE PREPARING A PERFORMANCE OVERVIEW REPORT,
A REPORT WHICH COMBINES THE ANNUAL PERFORMANCE PLAN FOR
FISCAL YEAR 2002 AND THE ANNUAL PERFORMANCE REPORT FOR
FISCAL YEAR 2000. TO ASSESS USAID'S PROGRESS AND ASSIST IN
FURTHER IMPROVEMENTS, THE OIG HAS BEGUN AN AUDIT OF THAT
PERFORMANCE OVERVIEW REPORT AS WELL AS OF USAID'S REVISED
STRATEGIC PLAN.
USAID'S INTERNAL SYSTEM FOR REPORTING RESULTS

     USAID HAS AN INTERNAL SYSTEM FOR REPORTING RESULTS THAT
IS NOT FULLY INTEGRATED WITH THE FRAMEWORK OF THE RESULTS
ACT. THAT SYSTEM GENERATES THE “RESULTS REVIEW AND RESOURCE
REQUEST” REPORT--THE MOST SIGNIFICANT PERFORMANCE REPORT
THAT USAID OPERATING UNITS SEND TO THEIR RESPECTIVE BUREAUS.

     IN A WORLDWIDE SERIES OF AUDITS, THE OIG DETERMINED AND
REPORTED THAT THESE RESULTS REPORTS PREPARED IN 1997
CONTAINED DATA WHICH WERE NOT OBJECTIVELY VERIFIABLE,
SUPPORTED, ACCURATE, COMPLETE OR VALIDATED. IN RESPONSE TO
THE RECOMMENDATION IN THAT AUDIT REPORT, USAID:

•   ISSUED GUIDANCE TO ITS OPERATING UNITS ON THE QUALITY OF
    INDICATORS AND DATA USED FOR RESULTS REPORTING,

•   CONDUCTED TRAINING FOR USAID PERSONNEL ON THE
    IMPLEMENTATION OF THE GUIDANCE DISCUSSED ABOVE, AND

•   REVISED USAID DIRECTIVES ON PERFORMANCE REPORTING.

     IN AUGUST 1999, USAID OFFICIALS ASKED THE OIG TO
PERFORM ADDITIONAL AUDITS TO ASSESS OPERATING UNITS'
IMPLEMENTATION OF THE ABOVE USAID ACTIVITIES. THE OIG
WORKED CLOSELY WITH USAID’S PERFORMANCE MEASUREMENT EXPERTS
TO DEVELOP THE AUDIT OBJECTIVE AND METHODOLOGY. THE AUDITS
CONDUCTED TO DATE REVEALED THAT OPERATING UNITS NEED TO:

•   PREPARE AND CARRYOUT PERFORMANCE MONITORING PLANS TO
    BETTER ENSURE THAT CREDIBLE RESULTS WILL BE REPORTED, AND

•   ASSESS THE QUALITY OF PERFORMANCE DATA INCLUDED IN THE
    RESULTS REPORT AND MORE FULLY DISCLOSE DATA LIMITATIONS,
    IF ANY, WHEN DATA ARE REPORTED.

     USAID OFFICIALS PARTICIPATED AS OBSERVERS DURING THESE
AUDITS, AND AGREED WITH THE FINDINGS TO DATE. THE OIG IS


                              17
CONTINUING THIS COLLABORATIVE AUDIT EFFORT IN FISCAL YEAR
2001.

     IN RESPONSE TO THE AUDIT CONCERNS, USAID OFFICIALS
REVISED USAID DIRECTIVES FOR PERFORMANCE MONITORING. IN
ADDITION, USAID OFFICIALS HAVE BEGUN TO CONDUCT (1) TRAINING
ON ASPECTS OF A PERFORMANCE MONITORING SYSTEM AND (2)
SEMINARS ON THE NEW USAID DIRECTIVES. THESE ACTIVITIES ARE
SCHEDULED TO CONTINUE THROUGH THE SPRING OF 2001.

USAID’S BROAD AND CHANGING MANDATE
     USAID’S OPERATIONAL MANDATE IS EXCEEDINGLY BROAD. THE
PRESIDENT’S COMMISSION ON THE MANAGEMENT OF A.I.D. PROGRAMS
REPORTED IN 1992 THAT USAID WAS FACED WITH A MULTIPLICITY OF
PROGRAMS AND UNCLEAR MANDATES IN AN ENVIRONMENT OF
DIMINISHING OPERATIONAL RESOURCES. IN 1993, THE WHARTON
TASK FORCE CONCLUDED THAT USAID HAD TOO MANY INDIVIDUAL
COUNTRY PROGRAMS FOR THE SIZE OF ITS STAFF AND BUDGET. MORE
RECENTLY, USAID HAS BEEN FACED WITH BROAD AND CHANGING
INITIATIVES WHICH PLACE INCREASING DEMANDS ON ITS RESOURCES-
-SUCH AS DISASTER ASSISTANCE UNDER THE CENTRAL AMERICA AND
CARIBBEAN RECONSTRUCTION SUPPLEMENTAL APPROPRIATION AND THE
HIV/AIDS AND INFECTIOUS DISEASES RAPID RESPONSE.

     IN ADDITION, ACCORDING TO USAID OFFICIALS, THE NATURE
OF THE MANDATE ITSELF SEEMS TO BE EVOLVING SO AS TO ADDRESS
KEY FOREIGN POLICY ISSUES OF THE DAY. USAID’S MANDATE ON
SUSTAINABLE DEVELOPMENT IN THE POOREST COUNTRIES AND
EMERGENCY ASSISTANCE IN RESPONSE TO NATURAL DISASTERS HAS
EXPANDED TO INCLUDE ADDRESSING TRANSITIONS FROM COMMUNISM,
HELPING NATIONS RECOVER FROM PERIODS OF CONFLICT AND
PREVENTING FUTURE CONFLICT.

     THE OIG HAS NOT MADE ANY GENERAL RECOMMENDATIONS IN
THIS AREA. WITH REGARD TO THE MULTIPLICITY OF MANDATES AND
PROGRAMS AND THE LACK OF ADEQUATE RESOURCES, THIS IS CLEARLY
A MATTER THAT IS NOT ENTIRELY WITHIN USAID’S CONTROL.
NEVERTHELESS, USAID HAS TAKEN SOME STEPS TO COME TO TERMS
WITH THE CHALLENGES OF ITS BROAD MANDATE.

     IN RESPONSE TO THE WHARTON REPORT, WHICH SAID THAT
USAID HAD TOO MANY COUNTRY PROGRAMS, USAID CLOSED NUMEROUS
MISSIONS WORLDWIDE--ALTHOUGH OTHER MISSIONS HAVE SINCE BEEN
OPENED IN RESPONSE TO CHANGING U.S. FOREIGN POLICY
INITIATIVES. AS A RESULT, SOME COUNTRIES NOW RECEIVE USAID
FUNDS WITHOUT THE PRESENCE OF A USAID OFFICE IN-COUNTRY OR
WITH ONLY A FEW USAID PERSONNEL. IN RESPONSE TO A RECENT
OIG AUDIT, USAID HAS ISSUED GUIDANCE RELATING TO CONTROLS
NEEDED FOR ACTIVITIES IN SUCH COUNTRIES. IN ADDITION, USAID
IS TRYING TO FIND BETTER WAYS TO WORK WITH THE MISSIONS THAT
REMAIN--MISSIONS THAT ARE TYPICALLY MUCH SMALLER THAN IN THE
PAST. IN JUNE 2000, THE USAID ISSUED A GENERAL NOTICE ON
HOW TO MAKE SMALLER MISSIONS MORE EFFECTIVE.


                             18
     WITH REGARD TO RESPONDING TO BROAD AND CHANGING
INITIATIVES, SUCH AS EXTENSIVE DISASTER ASSISTANCE OR
INCREASED HIV/AIDS FUNDING, USAID HAS SOUGHT TO OBTAIN
ADDITIONAL RESOURCES FOR PERSONAL SERVICES CONTRACTORS OR
TECHNICAL ADVISORS TO HELP CARRY OUT SUCH INITIATIVES. IN
ADDITION, USAID HAS SET UP A WORKING GROUP ON HOW TO COPE
WITH THE RESOURCE DEMANDS OF SUPPLEMENTAL APPROPRIATIONS.

     FINALLY, WITH REGARD TO THE EVOLVING RATIONALE FOR
FOREIGN ASSISTANCE—AND THE INCREASING INVOLVEMENT OF THE
DEPARTMENT OF STATE IN DEVELOPMENT ISSUES—USAID HAS SIGNED
AN AGREEMENT WITH THE DEPARTMENT OF STATE TO ENHANCE
COOPERATION AND COORDINATION BETWEEN THE TWO AGENCIES.
     THE OIG IS PLANNING TO AUDIT THE EFFECTIVENESS OF
REPORTING SYSTEMS IN COUNTRIES WHERE USAID DOES NOT HAVE A
PRESENCE OR ONLY A VERY LIMITED PRESENCE, SYSTEMS WHICH WERE
ESTABLISHED AS THE RESULT OF AN AUDIT WE ISSUED IN 1999.

ACCOUNTABILITY IN THE INTERNATIONAL ENVIRONMENT

     ACCOUNTABILITY IN THE INTERNATIONAL ENVIRONMENT
PRESENTS A SERIOUS MANAGEMENT CHALLENGE TO THE SUCCESS OF
USAID’S ACTIVITIES.

     USAID ADMINISTERS ITS ECONOMIC AND HUMANITARIAN
ASSISTANCE IN AN OVERSEAS ENVIRONMENT HIGHLY VULNERABLE TO
FRAUD AND CORRUPTION. TO ILLUSTRATE, EACH YEAR TRANSPARENCY
INTERNATIONAL PUBLISHES ITS CORRUPTION PERCEPTIONS INDEX
RATING COUNTIES SURVEYED ON A SCALE FROM 10 (LEAST CORRUPT)
TO 0 (HIGHLY CORRUPT). OF THE 90 COUNTRIES TRANSPARENCY
INTERNATIONAL RATED FOR 2000, 42 COUNTRIES RECEIVED A RATING
BELOW 4 (FROM 3.9 TO 1.2). OF THESE 42 COUNTRIES, USAID HAS
BEEN PROVIDING ASSISTANCE TO 36.

     CORRUPTION AND LACK OF ACCOUNTABILITY ARE MAJOR
IMPEDIMENTS TO ECONOMIC DEVELOPMENT, THE GROWTH OF
DEMOCRATIC INSTITUTIONS, AND THE ABILITY OF DEVELOPING
COUNTRIES TO ATTRACT SCARCE FOREIGN INVESTMENTS. OVER THE
PAST FEW DECADES, AUDITORS, INVESTIGATORS AND OTHERS,
INCLUDING THE MEDIA, HAVE IDENTIFIED INSTANCES WHERE FOREIGN
AID FUNDS HAVE BEEN ADVERSELY AFFECTED BY CORRUPTION. SUCH
ADVERSE PUBLICITY FROM CORRUPTION HAS HELPED TO ERODE THE
U.S. PUBLIC’S CONFIDENCE IN AND SUPPORT FOR U.S. FOREIGN
AID.

     BOTH USAID AND THE OIG HAVE INITIATED VARIOUS
ACTIVITIES IN RESPONSE TO THIS SERIOUS MANAGEMENT CHALLENGE
OF OBTAINING ACCOUNTABILITY IN THE INTERNATIONAL
ENVIRONMENT. FOR EXAMPLE, USAID’S SECOND STRATEGIC GOAL IS
TO SEEK TO STRENGTHEN DEMOCRACY AND GOOD GOVERNANCE. WITHIN
THIS STRATEGIC OBJECTIVE, USAID FOCUSES ITS EFFORTS ON FOUR


                             19
AREAS: STRENGTHENING THE RULE OF LAW AND RESPECT FOR HUMAN
RIGHTS, ENCOURAGING CREDIBLE AND COMPETITIVE POLITICAL
PROCESSES, PROMOTING THE DEVELOPMENT OF POLITICALLY ACTIVE
CIVIL SOCIETY, AND ENCOURAGING MORE TRANSPARENT AND
ACCOUNTABLE GOVERNMENT INSTITUTIONS.

     THE OIG’S ACTIVITIES CAN BE CATEGORIZED AS THOSE
DIRECTED AT PREVENTING LOSS AND THOSE DIRECTED AT DETECTING
LOSS. THE OIG HAS DEDICATED SIGNIFICANT RESOURCES TO
PREVENT LOSSES FROM CORRUPTION BEFORE THEY OCCUR IN AREAS
WHERE WE ASSESS USAID AS HAVING THE GREATEST VULNERABILITY
TO LOSS. FOR EXAMPLE, THE OIG REQUIRES ANNUAL AUDITS OF
U.S.-BASED AND INDIGENOUS ORGANIZATIONS RECEIVING U.S.
ASSISTANCE AND ALSO PROVIDES FRAUD AWARENESS TRAINING AND
BRIEFINGS AROUND THE WORLD.

     THE OIG’S STRATEGY FOR ACHIEVING ACCOUNTABILITY IN THE
INTERNATIONAL ARENA ALSO FOCUSES ON EFFORTS TO DETECT
FINANCIAL LOSS. THESE EFFORTS INCLUDE: ASSESSING
CORRUPTION AND RISKS IN COUNTRIES; FOCUSING ON U.S. AND
OTHER ORGANIZATIONS WITH A HISTORY OF NONCONFORMANCE TO U.S.
REGULATIONS AND LAW AND CONCENTRATING ON PROGRAMS THAT HAVE
BEEN VULNERABLE TO FRAUD, WASTE AND ABUSE; AND, SUPPORTING
SUPREME AUDIT INSTITUTIONS WHO PERFORM REGULAR AUDITS OF
VARIOUS GOVERNMENTAL MINISTRIES AND PROGRAMS IN THEIR
COUNTRIES. THE OIG ALSO ENCOURAGES THE USE OF THE OIG
HOTLINE AND OTHER REFERRALS TO IDENTIFY CORRUPT AND
VULNERABLE ACTIVITIES AND ACTIVELY INVESTIGATES ALLEGATIONS
OF FRAUD AND CORRUPTION.

     USAID IS NOW FACED WITH A NEW CHALLENGE. ON OCTOBER
17, 2000, THE PRESIDENT SIGNED INTO LAW THE INTERNATIONAL
ANTI-CORRUPTION AND GOOD GOVERNANCE ACT OF 2000. THE
PURPOSE OF THIS LEGISLATION IS TO ENSURE THAT UNITED STATES
ASSISTANCE PROGRAMS PROMOTE GOOD GOVERNANCE BY ASSISTING
OTHER COUNTRIES TO COMBAT CORRUPTION THROUGHOUT SOCIETY AND
TO IMPROVE TRANSPARENCY AND ACCOUNTABILITY AT ALL LEVELS OF
GOVERNMENT AND THROUGHOUT THE PRIVATE SECTOR.

     THIS LEGISLATION AUTHORIZES SPECIFIC PROJECTS AND
ACTIVITIES THAT, AMONG OTHER THINGS: SUPPORT RESPONSIBLE
INDEPENDENT MEDIA TO PROMOTE OVERSIGHT OF PUBLIC AND PRIVATE
INSTITUTIONS; SUPPORT THE ESTABLISHMENT OF AUDIT OFFICES,
INSPECTORS GENERAL OFFICES, THIRD PARTY MONITORING OF
GOVERNMENT PROCUREMENT PROCESSES, AND ANTI-CORRUPTION
AGENCIES; AND, IMPLEMENT FINANCIAL DISCLOSURE AMONG PUBLIC
OFFICIALS, POLITICAL PARTIES, AND CANDIDATES FOR PUBLIC
OFFICE, OPEN BUDGETING PROCESSES, AND TRANSPARENT FINANCIAL
MANAGEMENT SYSTEMS.

     WHILE USAID’S SECOND STRATEGIC GOAL OF STRENGTHENING
DEMOCRACY AND GOOD GOVERNANCE ADDRESSES MANY OF THE NEW
LEGISLATION’S CONCERNS AND GOALS, USAID NEEDS TO DEVELOP, IN


                             20
COLLABORATION WITH OTHER AFFECTED U.S. GOVERNMENT AGENCIES,
A PLAN TO IMPLEMENT THIS NEW LEGISLATION. IT SHOULD BE
NOTED THAT THIS IS AUTHORIZING LEGISLATION AND AT THIS TIME
NO FUNDS HAVE BEEN APPROPRIATED FOR ITS IMPLEMENTATION. THE
LEGISLATION REQUIRES ANNUAL REPORTING ON PROJECTS AND
ACTIVITIES BEING CARRIED OUT UNDER PROGRAMS AUTHORIZED BY
THE LEGISLATION AND REQUIRES AN INITIAL REPORT WITHIN 180
DAYS OF THE ENACTMENT OF THE LEGISLATION, OR APRIL 17, 2001.
 THE OIG STANDS READY TO ASSIST USAID IN ITS INPUT IN
IMPLEMENTING AND REPORTING ON THIS LEGISLATION.

                          PART III
                    FOUNDATIONS OVERVIEW
TO ADDRESS OUR NEW RESPONSIBLITIES FOR AUDIT AND
INVESTIVGATIVE COVERAGE OF THE AFRICAN DEVELOPMENT
FOUNDATION AND THE INTER-AMERICAN FOUNDATION, OIG STAFF HAVE
PERFORMED COMPREHENSIVE REVIEWS AT THE ADF AND THE IAF AND
HAVE USED THESE REVIEWS TO DEVELOP STRATEGIES. UNDER OUR
NEW AUTHORITY, WE HAVE ALREADY CONDUCTED A PERFORMANCE AUDIT
AT EACH FOUNDATION. ADDITIONALLY, WE HAVE ALSO PERFORMED
QUALITY CONTROL REVIEWS OF EACH FOUNDATION'S FINANCIAL
STATEMENT AUDITS FOR FISCAL YEAR 1999.

     MR. CHAIRMAN, THIS CONCLUDES MY TESTIMONY.   THANK YOU
FOR YOUR TIME AND ATTENTION.




                             21
